OIG SAR 5-22-07    5/23/07   2:55 PM   Page 3




                                   MAJOR CHALLENGES

                                  FOR THE DEPARTMENT

                                                                         Challenge 1
              T
                      his section highlights the Top 10
                      Management Challenges that faced the
                      Department at the close of this semiannual         Control the Cost and
              period. Each challenge meets one or more of the            Improve the Accuracy
              following criteria: (1) it is important to the
              Department’s mission or the nation’s well-being, (2)       of the Decennial Census
              it is complex, (3) it involves sizable resources or
              expenditures, or (4) it requires significant               At an estimated cost of $11.5 billion, the 2010
              management improvements. Because of the diverse            census will be the country’s most expensive decennial
              nature of Commerce activities, these criteria              ever, both per capita and overall. The Census Bureau’s
              sometimes cut across bureau and program lines.             redesigned decennial plan, established after the 2000
              Experience has shown that by aggressively addressing       census, is heavily dependent on automating critical
              these challenges, the Department can enhance               field operations to accurately count the nation’s
              program efficiency and effectiveness; eliminate            population within budget. The bureau has
              serious operational problems; decrease fraud, waste,       established an ambitious testing schedule to monitor
              and abuse; and achieve substantial savings.                development and implementation of the strategy,
                                                                         identify problems, and incorporate solutions in time
                                                                         for 2010.
                     Top 10 Management Challenges
                   1. Control the cost and improve the accuracy          During the past year, we reviewed various aspects of
                      of the decennial census.                           the bureau’s 2006 test held in Travis County, Texas,
                                                                         and the Cheyenne River Reservation and Off-
                   2. Strengthen Department-wide

                                                                         Reservation Trust Land in South Dakota.
                      information security.

                   3. Effectively manage departmental and bureau
                      acquisition processes.
                                                                         Automating Address Canvassing
                   4. Strengthen internal controls over financial,
                      programmatic, and business processes.
                                                                         In our March 2006 Semiannual Report (page 19), we
                   5. Ensure that USPTO uses its authorities and         described our review of Census’s test of automated
                      flexibilities as a performance-based               address canvassing—an operation designed to keep
                      organization to achieve better results.            the bureau’s address file and digital map database
                   6. Effectively manage the development and
            current and complete. During address canvassing,
                      acquisition of environmental satellites.
          temporary staff equipped with handheld computers
                   7. Promote fair competition in
                       go into the field to verify, update, add, or remove
                      international trade.
                              addresses; add and delete streets to correct computer
                                                                         maps; and annotate address locations on the maps.
                   8. Effectively manage NOAA’s stewardship of           The information they collect has a direct bearing on
                      ocean and living marine resources.                 the bureau’s ability to accurately count the population.
                   9. Aggressively monitor emergency preparedness,
                      safety, and security responsibilities.             We found several problems that undercut the value of
                  10. Enhance export controls for                        the canvassing test, most notably, unreliable
                      dual-use commodities.                              handheld computer functions, including the GPS
                                                                         capabilities; inaccurate maps; insufficient quality


                                                                     3
OIG SAR 5-22-07   5/23/07   2:55 PM    Page 4




              Major Challenges for the Department                                            March 2007—Semiannual Report to Congress



              control training; and an inadequate focus on                  final enumeration list, while others were duplicates—
              outreach. We concluded that the bureau only                   appearing on both the enumeration and housing unit
              partially achieved its test objectives and could have         lists or twice on the enumeration list.
              earned a better return on its investment if it had
              fielded more reliable handheld computers, tested              We recommended that Census take additional steps
              areas where the postal service delivery of                    to count the student population, such as working
              questionnaires could potentially replace bureau               closely with fraternity and sorority campus oversight
              delivery to reduce costs, evaluated outreach efforts          organizations and exploring the use of the Internet as
              aimed at the hard-to-enumerate American Indian                a response option for this computer-oriented
              population, and assessed the viability and cost-              generation. Finally, we noted that some additional
              benefits of its decision to canvass nearly every              group quarters processes and procedures warrant
              household in the country in 2010.                             management attention.

              The Census Bureau concurred with some of our
              findings and recommendations, but took issue with             Counting American Indians
              others. In particular, the bureau disagreed that
                                                                            on Reservations
              valuable learning opportunities were missed, that
              unreliable handheld computers interfered with the
                                                                            We recently concluded fieldwork on one final 2006
              test, and that an analysis of the costs and benefits of
                                                                            test operation: update/enumerate at the Cheyenne
              100 percent address canvassing should be performed
                                                                            River Reservation—an effort designed to reduce the
              and less costly alternatives considered.
                                                                            historic undercount of American Indians living
                                                                            on reservations. Update/enumerate is used in
                                                                            communities where residents are less likely to return
              Improving Group Quarters Enumeration                          a completed questionnaire, so enumerators go door
                                                                            to door to collect census information in person and
              Although most U.S. residents live in residential              update the address lists and maps.
              housing units such as single-family houses,
              apartments, and mobile homes, more than 7 million
              people live in college dormitories, nursing homes,
              prisons, and group homes, collectively known as
              group quarters. In our September 2006 Semiannual
              Report (page 21), we reported on our review of the
              group quarters testing operation in Travis County,
              Texas—an ideal test location because it is home to
              four universities and colleges, a state prison, and
              numerous other group living facilities.

              We found that the bureau continues to face a number
              of challenges in enumerating group quarters. For
              example, (1) nontraditional student housing, such as
              private dorms and student cooperatives, did not
              easily fit into any of Census’s group quarters
                                                                                                                               U.S. Census Bureau
              definitions, and so some were not enumerated;
                                                                            In 2005 some 4.5 million people—or 1.5 percent of the total U.S.
              (2) 42 percent of the validation workload was                 population—identified themselves as American Indian and
              associated with large apartment complexes                     Alaskan Native (either alone or in combination with other races).
              erroneously identified as potential group quarters            These populations have been historically undercounted in decennial
              during address canvassing, which caused problems in           censuses. The Census Bureau is modifying its traditional approach
                                                                            to enumerating Native Americans for the 2010 census in hopes of
              group quarters validation and nonresponse follow-             getting a more accurate count.
              up; (3) a number of group quarters were not on the


                                                                        4
OIG SAR 5-22-07   5/23/07   2:55 PM   Page 5




              March 2007—Semiannual Report to Congress                                                Major Challenges for the Department



              We are preparing to issue our draft report to                 considering key concerns discussed in our summary
              Census officials, in which we will detail our                 report on Census 2000 (Improving Our Measure of
              recommendations for improving reservation                     America: What Census 2000 Can Teach Us in Planning
              enumerations. We will discuss our final report in our         for 2010, OIG-14431). Numerous topics emerged
              September 2007 Semiannual Report to Congress.                 from our extensive work since—evaluations of the
                                                                            master address file, TIGER® maps, handheld
                                                                            computers, and components of the 2004 and 2006
              Protecting Confidentiality                                    census tests. Considering the results of this prior
                                                                            work and the bureau’s goals of reducing costs and
              Public cooperation is essential to the bureau’s ability       improving accuracy and timeliness, we have
              to improve the accuracy of the decennial census and           identified and prioritized over 50 areas for potential
              successfully conduct its other surveys. But most              review, including various Census operations, large
              people are willing to cooperate only if assured that          contracts, internal controls, new major systems, and
              the sensitive personal information they share is              budgetary matters. We will seek input from the
              protected. Unfortunately, the recent, well-publicized         Department, the Census Bureau, and Congress in
              loss of hundreds of Census laptops and unauthorized           finalizing our agenda for the remainder of the decade
              release of personal data on a bureau web site is likely       and look forward to further contributing, through
              to undermine trust.                                           our work, to a successful 2010 decennial census.

              Our office, at the request of Secretary Gutierrez, is
              assessing the bureau’s property management policies
              and practices as well as its controls for protecting          Challenge 2
              sensitive personal information in light of the laptop
              losses. We will report our findings during the next           Strengthen Department-Wide
              semiannual period.                                            Information Security
                                                                            Information security remains at the forefront of the
              OIG Planning: 2008 Census Dress                               challenges facing most federal agencies, as they
              Rehearsal and 2010 Decennial Census                           endeavor to protect critical assets and sensitive
                                                                            information in the ever-changing online world. Last
              The bureau has one final opportunity to test and              year, 19 federal agencies reported IT security breaches
              improve its decennial design and methods before               and loss of sensitive personal information in incidents
              conducting the 2010 census—the 2008 dress                     dating back to 2003, the result of unauthorized
              rehearsal. Slated for Stockton, California, and               system access or—in the case of stolen laptops—lax
              Fayetteville, North Carolina, and a number of                 personal property controls.1 Increasing use of mobile
              surrounding counties, the dress rehearsal will execute        devices and expanding remote access privileges are
              nearly all planned operations and procedures under            but two of the trends reshaping the way government
              conditions as close to those of the actual decennial as       conducts business that require vigilant, proactive, and
              possible. This is a huge and critical undertaking, and        ever-more creative security solutions.
              key to the success of 2010.
                                                                            Since enactment of the Federal Information Security
              The Office of Inspector General has undertaken a              Management Act (FISMA) in 2002, agencies have
              comprehensive planning effort to determine how to             spent millions of dollars to improve the security of
              best utilize our limited resources in conducting              information stored on their computer systems and
              effective oversight and providing Census with the             shared via the Internet. Yet weaknesses persist and
              most meaningful feedback on dress rehearsal
              operations during the time remaining in this
              decennial cycle. We began the decade by first                 1
                                                                                http://oversight.house.gov/Documents/20061013145352­
                                                                                82231.pdf



                                                                        5
OIG SAR 5-22-07    5/23/07   2:55 PM    Page 6




              Major Challenges for the Department                                                March 2007—Semiannual Report to Congress



              breaches continue. At Commerce, IT security has                systems2 to OIG for FISMA review. (Nearly 80
              been a material weakness since 2001.                           percent of Commerce’s 300 systems are either
                                                                             moderate or high impact.)

                  What Is C&A and Why Does It Matter?                        Although progress is slow, we are seeing
                                                                             improvements. Overall, security plans are better
                                                                             identifying system components (e.g., firewalls,
                  Certification is a comprehensive assessment of
                                                                             routers, switches, servers). And we have seen
                  security controls implemented in a computer
                                                                             significant advances in assessing security controls for
                  system. It determines whether controls are
                                                                             several systems. C&A of contractor systems remains
                  implemented correctly, operating as intended,
                                                                             an issue, as none we reviewed last fiscal year met the
                  and meeting the security requirements for the
                                                                             requirements of Commerce’s IT security policy and
                  system. Through the formal assessment of
                                                                             applicable NIST standards and guidance.
                  controls, the system certifier identifies any
                  vulnerabilities that have not been eliminated by
                                                                             This fiscal year, we have redoubled our efforts to
                  security controls.
                                                                             convey C&A problems and needed fixes to CIOs,
                                                                             senior officials, authorizing officials, and system
                  Accreditation       is    management’s       formal
                                                                             owners throughout the Department. This dialogue
                  authorization to allow a system to operate. It
                                                                             has already begun to pay off by prompting greater
                  includes an explicit acceptance of the risks posed
                                                                             management attention to IT security and better
                  by any identified remaining vulnerabilities.
                                                                             understanding of C&A requirements, challenges, and
                  Through accreditation, senior agency officials
                                                                             responsibilities. Senior officials better appreciate the
                  take responsibility for the security of systems they
                                                                             rigor of the C&A process and the need to ensure that
                  manage and for any adverse impacts should a
                                                                             government personnel developing the packages, as
                  breach in security occur.
                                                                             well as the contractors supporting them, have the
                                                                             necessary knowledge and skills.

              The Department’s certification and accreditation
              (C&A) process is the reason for the material                   Lost Laptops Prompt Department-wide
              weakness. According to NIST guidance, authorizing
                                                                             Security Fix
              officials must have complete, accurate, and
              trustworthy information on a system’s security status
                                                                             In September 2006, the Department reported that
              in order to make timely, credible, risk-based decisions
                                                                             1,138 laptop computers had been lost or stolen over
              on whether to authorize its operation. This
                                                                             the past 5 years, and more than 20 percent contained
              information is produced by the system security
                                                                             sensitive personal data. In October it reported that
              certification process. Our reviews of the
                                                                             297 instances of compromise had occurred since
              Department’s C&A packages continue to find a
                                                                             2003, involving laptops, handheld devices, and
              C&A process that does not adequately identify and
                                                                             thumb drives. Publicized breaches in the security of
              assess needed management, operational, and
                                                                             personally identifiable information have prompted
              technical security controls. As a result, authorizing
              officials do not have the information they need to             2
                                                                                 In accordance with NIST’s Federal Information Processing
              make sound accreditation decisions.                                Standards (FIPS) Publication 199, agencies must categorize
                                                                                 their IT systems and data as high, moderate, or low impact
              To improve C&A, Commerce’s Office of the Chief                     according to the potential harm to an agency’s mission that
              Information Officer (OCIO) began reviewing C&A                     system compromise or unauthorized data disclosure would
                                                                                 cause. For example, a system that processes routine, nonprivate
              packages in FY 2005, working with the bureaus to                   administrative information is considered low impact. A system
              improve noted deficiencies and forwarding packages                 that processes statistical data based on personally identifiable
              considered acceptable for high- or moderate-impact                 information is considered moderate impact, and a system that
                                                                                 is used for emergency or disaster response is considered
                                                                                 high impact.



                                                                         6
OIG SAR 5-22-07   5/23/07   2:55 PM   Page 7




              March 2007—Semiannual Report to Congress                                             Major Challenges for the Department



              new OMB requirements for protecting this                       in the bureaus and at the departmental level. Recent
              information and a new policy at Commerce. OMB                  OIG audits and evaluations have identified the need
              requires that all mobile computing devices encrypt             for improvements in acquisition planning, to
              sensitive data and that agencies report related security       include accurate independent cost estimates,
              breaches to the U.S. Computer Emergency Readiness              effective market research, and full and open
              Team (US-CERT) within 1 hour of discovering                    competition whenever possible.
              them. Under the Department’s new policy, only
              laptops equipped with approved encryption software             Part of the challenge facing the Department in this
              may store personally identifiable information.                 area is the high turnover in upper management
              Carrying this information on thumb drives, CDs,                contracting positions at several of its agencies.
              and similar devices has been restricted. Challenge 1           Continuity and consistency in contracts management
              (page 3) on the decennial census describes the work            and oversight are essential to ensuring the
              we are doing in response to the Secretary’s request to         government gets what it pays for in these complex,
              assess the security controls on Census laptop                  costly acquisitions—and that services are delivered
              computers and other mobile devices. This evaluation            on time and within budget. But the obstacles to
              is near completion and will be discussed in detail in          achieving these goals are steadily increasing, and with
              our next Semiannual Report.                                    them, the demands on contracts personnel. The
                                                                             Department needs a plan to replace the lost talent
              In January, Commerce began a Department-wide                   and develop and retain staff already on board to
              project to encrypt all laptops as quickly as possible.         provide the high-level management expertise and
              By mid-March, four operating units (including OIG)             consistency needed.
              had encrypted their entire inventory of laptops; two
              had requested waivers; and the remaining agencies
              had various completion dates, the latest being June 1.
              The Department has also instituted procedures for
                                                                             New Contract Audits Division
              reporting security incidents involving sensitive data
              to US-CERT within the 1-hour deadline.                         To enhance our oversight of Commerce’s acquisition
                                                                             activities, we have established a contract audits
              Finally, responding to OMB requirements,                       division to focus on them. The division will audit
              Commerce is working toward “two-factor                         individual contracts and look at crosscutting
              authentication” for accessing agency IT systems,               acquisition issues to identify opportunities to
              which would use a biometric identifier, such as a              improve departmental and bureau procurement
              fingerprint, along with a password, and would                  policies and to minimize the likelihood of fraud,
              require that sensitive data extracted from agency              waste, and abuse. It will also look for and report on
              databases be erased from the downloading computer              best practices and innovative approaches that can be
              within 90 days of the download.                                adopted Department-wide.

                                                                             The division’s initial area of emphasis will be the
                                                                             Census Bureau’s procurement of products and
                                                                             services to support the 2010 decennial census. The
              Challenge 3                                                    bureau estimates that 17 percent ($1.9 billion) of its
              Effectively Manage Departmental                                2010 budget will be spent on contracts for
                                                                             information technology systems, advertising, and
              and Bureau Acquisition Processes                               leases for local office space. Contract audits staff is
                                                                             currently monitoring Census’s efforts to procure
              With Commerce spending nearly $2 billion a year                advertising and other communications services.
              on goods and services, the potential for waste, fraud,         These are considered essential to the bureau’s efforts
              or abuse looms large within the Department. OIG                to lower operational costs by obtaining a high return
              continues to closely monitor procurement processes             rate for mailed questionnaires and thereby



                                                                         7
OIG SAR 5-22-07   5/23/07   2:55 PM    Page 8




              Major Challenges for the Department                                             March 2007—Semiannual Report to Congress



              minimizing the number of households that require                 Challenge 4
              nonresponse follow-up.
                                                                               Strengthen Internal Controls over
              Census issued a request for proposals for
              communications services in January 2007 and plans
                                                                               Financial, Programmatic, and
              to award a single indefinite delivery/indefinite                 Business Practices
              quantity contract, with maximum costs capped at
              $300 million, in the fall of 2007. We are monitoring             Internal controls are the steps agencies take to make
              the progress of this procurement, and plan to pay                sure their operations are effective, efficient, and in
              close attention to its management at every phase.                compliance with laws and regulations. Internal
              Among other things, we will focus on how Census                  controls also ensure that financial reporting is reliable
              measures the contractor’s performance and whether it             and assets are safeguarded from waste, loss, or
              uses award fees appropriately.                                   misappropriation.

              Other contracts of interest to OIG include one issued            Under OMB’s revised Circular A-123, agencies in FY
              by NOAA’s National Data Buoy Center, a part of the               2006 began implementing new internal accounting
              National Weather Service that designs, develops,                 controls and since FY 2004 have had to issue audited
              operates, and maintains a network of data-collecting             financial statements within 45 days of the fiscal year’s
              buoys and coastal stations. In 2005 the center                   close. Commerce has met this deadline both years,
              awarded a 10-year contract worth up to $500 million              and has continued to receive a clean opinion on its
              for technical services support for its marine                    consolidated statements (see page 57).
              observation network. OIG plans to review NOAA’s
              management of this contract, as well as its oversight            These are no small accomplishments. In the years
              of the associated tasks performed to maintain and                since passage of the 1990 Chief Financial Officers
              repair data buoys and other observation platforms for            Act, Commerce has been chipping away at financial
              marine weather forecasting.                                      management problems, overhauling accounting
                                                                               practices, and consolidating an array of legacy
                                                                               financial systems into one. The result has been a more
                                                                               integrated system designed to give agency managers
                                                                               current, accurate information with which to
                                                                               make decisions.

                                                                               The next step is government-wide integration. In
                                                                               2006, under an initiative known as Financial
                                                                               Management Line of Business, OMB began
                                                                               requiring all agencies—when upgrading their
                                                                               financial systems—to consolidate their core financial
                                                                               operations (accounting, payments, and recording)
                                                                               with those of other agencies, either by using shared
                                                                               service providers or becoming shared service
                                                                               providers themselves. The goals of the initiative are to
                                                                               standardize systems, promote seamless data exchange,
                                                                               improve the quality and efficiency of financial
                                                      www.ndbc.noaa.gov/
                                                                               operations, reduce costs, and eliminate redundancy.

                                                                               Agencies have until 2015 to move to or become
                                                                               shared service providers. They must begin reporting
                                                                               in June 2007 how well their financial services
                                                                               perform as part of the Financial Management Line of


                                                                           8
OIG SAR 5-22-07    5/23/07    2:55 PM     Page 9




              March 2007—Semiannual Report to Congress                                                   Major Challenges for the Department



              Business, using metrics OMB published March 30,                       Ensuring Sound Management of New
              2007. These evaluations will serve as blueprints for
                                                                                    NTIA Programs
              identifying needed internal control improvements
              and the steps required to migrate to shared services.
                                                                                    The Digital Television Transition and Public Safety
                                                                                    Act of 2005 requires the FCC to auction recovered
                                                                                    analog spectrum and deposit the proceeds into a
                                                                                    special fund. A portion of the proceeds will be used
                                                                                    to fund many new programs within the
                                                                                    National Telecommunications and Information
                                                                                    Administration. Under the act, NTIA, one of the
                                                                                    Department’s smaller agencies, is slated to manage up
                                                                                    to nine new programs, two of which have potential
                                                                                    combined budgets totaling $2.5 billion (a grant
                                                                                    program for interoperable communications and a
                                                                                    converter box coupon program).

                                                                                    Successfully implementing these new programs will
                                                                                    constitute a significant management challenge for the
                                                                                    Department. We are sharing our expertise with
                                                                                    NTIA to help it design strong, well-structured
                                                                                    programs that minimize opportunities for fraud.
                                                                                    During this period, we examined certain aspects of
                                                                                    the accounting system and financial records of a
                                                                                    broadcasting consortium slated to receive a
                                                                                    $30 million grant under the act. We provided agency
                                                                                    management with information it could use to ensure
              The Department outlined its strategy for implementing the             the grantee’s accounting structure complied with
              Financial Management Line of Business initiative in its FY 2006       federal requirements and supported appropriate use
              Performance & Accountability Report.                                  of federal funds prior to the funds’ disbursement.
                                                                                    (See page 47.) We are also monitoring the agency’s
              Planning for the transition at Commerce is under way.                 implementation of the converter box program and
              The Department is, among other things, upgrading its                  the interoperable communications grant program.
              financial applications software and consolidating these
              applications to one data center using a common
              hardware platform. It is seeking contractor support for               Evaluating Program and Accountable
              a comprehensive financial management modernization                    Property Controls
              project3 that will achieve Line of Business goals,
              including those for facilitating strong internal controls,
                                                                                    Commerce also needs to strengthen internal controls
              reducing costs, standardizing systems and business
                                                                                    for select programs and administrative operations.
              processes, and allowing seamless data exchange with
                                                                                    For example, a recent review of the Department’s
              other federal agencies. This is a huge, critical
                                                                                    Federal Employees Compensation Act program
              undertaking that we plan to carefully monitor.
                                                                                    found a variety of problems caused by poor internal
                                                                                    controls, including people who were overpaid or who
                                                                                    remained on workers’ compensation rolls for years
                                                                                    without medical justification.
              3
                  www.fbo.gov/spg/DOC/OS/OAM-OSBS/Reference%2D
                  Number%2DMARKET%2DRESEARCH%2D02232007/                            During this semiannual period, our audits of EDA’s
                  SynopsisR.html                                                    revolving loan fund program and the Department’s


                                                                                9
OIG SAR 5-22-07   5/23/07   2:55 PM    Page 10




              Major Challenges for the Department                                           March 2007—Semiannual Report to Congress



              management of premium-class travel revealed                   similar problems and the potential compromise of
              numerous deficiencies in program controls. We also            sensitive patent information.
              began looking at the Census Bureau’s accountable
              property management policies and practices, at the
              Secretary’s request, in light of the loss of several
              hundred laptops. Because the design and
              implementation of program and property controls
              can significantly impact the effectiveness of
              departmental operations, we expect that this area will
              remain an important aspect of our audit and
              inspection work.



                                                                                                                                    USPTO
              Challenge 5                                                   Patent examiners at USPTO use a dual-monitor setup to
                                                                            improve efficiency.
              Ensure that USPTO Uses Its
              Authorities and Flexibilities as a                            The long-standing and growing backlog highlights
                                                                            other issues for USPTO and OIG attention: the need
              Performance-Based Organization                                to expedite a fully electronic patent examination
              to Achieve Better Results                                     process and to carefully monitor the agency’s billion-
                                                                            dollar investment in high-risk time and materials and
              USPTO’s operations and practices have been a                  award fee contracts for related information
              strong focus of our work since March 2000, when               technology services. Our review last year of NOAA’s
              the Patent and Trademark Office Efficiency Act                multibillion-dollar award fee contract for satellites
              transformed the agency into a performance-based               revealed the pitfalls of these arrangements and the
              organization that operates like a private corporation.        potential for huge cost overruns. (See September
              We have issued nearly a dozen reports since that              2006 Semiannual Report, page 29.) OIG may
              time, examining a host of administrative, program,            conduct reviews of selected USPTO contracts to
              and operational issues. One particularly troubling            ensure vendors are complying with contract terms
              area has been human resources: our reviews of the             and conditions, containing costs, and delivering the
              agency’s HR office have identified some questionable          required services on time.
              practices and the need for improved management
              controls and policies.                                        During this semiannual period, we reviewed
                                                                            USPTO’s procurement process to learn whether the
              Strong HR operations are essential at an agency               agency’s acquisition criteria have changed since the
              hiring hundreds of new patent examiners each year to          Patent and Trademark Office Efficiency Act took
              reduce a backlog of unexamined patent applications            effect. We noted several areas that could benefit from
              that has reached historic proportions, and pursuing           improved guidance, particularly with regard to
              alternative work arrangements to enhance                      applying the Patent and Trademark Office Acquisition
              productivity and improve staff retention. These               Guidelines. We also found data input errors that
              initiatives raise other areas of concern. For example,        could have been prevented with better controls.
              USPTO continues to expand its telework program,               (See page 53.)
              allowing hundreds of patent examiners to use laptops
              to work at offsite locations. The findings of lost
              laptops and data security problems at other
              Commerce bureaus underscore the need for strong
              policies, procedures, and controls at USPTO to avoid



                                                                       10
OIG SAR 5-22-07   5/23/07   2:55 PM   Page 11




              March 2007—Semiannual Report to Congress                                                  Major Challenges for the Department




              Challenge 6                                                    whether program staff report significant issues to
                                                                             senior Department and NOAA oversight officials in
              Effectively Manage the                                         a timely fashion and whether those officials take
                                                                             appropriate action.
              Development and Acquisition of
              Environmental Satellites                                       Our acquisition focus is on the program office’s
                                                                             overall approach to procuring key satellite
              Over the next 5 years, NOAA will spend several                 instruments, identifying potential risks, and
              billion dollars in contracts for the purchase,                 implementing associated mitigation strategies. We
              construction, and modernization of environmental               are also assessing the acquisition contracts’ award fee
              satellites. These systems, operated by the National            plans to determine whether they are structured to
              Environmental Satellite, Data and Information                  promote excellent performance.
              Service (NESDIS), collect data to provide short- and
              long-range weather forecasts and a variety of other
              critical environmental and climate information.


              GOES-R Costs, Schedule, and
              Capabilities Are Being Redefined
              In the next decade, the geostationary operational
              environmental satellite R series (GOES-R) will
              replace the existing GOES satellites. The new series
              will have enhanced sensing capabilities that are
              expected to offer an uninterrupted flow of high-
              quality data to support weather forecasting, severe
              storm detection, and climate research vital to public
              safety. GOES-R is a multicontract, multiyear
              program wholly funded by Commerce, though the
              new satellites will be developed and acquired with
              help from NASA Goddard Space Flight Center.

              The Department’s investment for GOES-R for fiscal
              years 2006 to 2010 is projected to be about                                                     www.photolib.noaa.gov/htmls/spac0107.htm
              $2 billion. Planning for the new series has been under         Over the next 5 years, NOAA will spend several billion dollars
              way for the past 6 years. During this semiannual               in contracts for the purchase, construction, and modernization of
              period, we conducted fieldwork in conjunction with             environmental satellites. Above, the predawn launch of a
                                                                             NOAA satellite.
              our joint review of the GOES-R program with
              NASA’s Office of Inspector General. Our shared
              objective is to determine whether the Department               NASA OIG plans to determine whether NASA
              and NASA have created a management structure to                program management councils effectively identify
              ensure effective oversight of the many risks associated        and review program issues and progress, and whether
              with the GOES-R program. At Commerce, the                      procedures and processes are in place to recognize,
              oversight component of our work is looking at the              mitigate, and report technical risks in accordance
              Department and NOAA’s efforts to establish effective           with NASA policy.
              monitoring organizations, policies, and procedures
              and the mechanisms NOAA will use to leverage                   The Department, NOAA, and NASA, as part of
              NASA’s oversight expertise. We are also examining              detailed risk reduction activities, have been



                                                                        11
OIG SAR 5-22-07   5/23/07     2:55 PM    Page 12




              Major Challenges for the Department                                             March 2007—Semiannual Report to Congress



              restructuring major aspects of the program in                     phase of the program to contain costs and promptly
              response to input on costs and technological risks                mitigate problems.
              provided by independent review teams and
              contractors. These changes include the following:                 NPOESS—a joint project of NOAA, NASA, and the
                                                                                Department of Defense—will be a critical element in
                   ■	   Reductions in system capabilities to contain            the nation’s ability to provide continuous weather
                        unacceptable costs and risks.                           and environmental data for civilian and military
                                                                                needs through the coming 2 decades.
                   ■	   Modifications to the satellite architecture,
                        necessitating approximately $18 million in              In November 2005, Defense reported that NPOESS
                        rework by the program definition contractors.           costs had grown by 25 percent over original
                                                                                estimates—triggering congressional recertification of
                   ■	   A revised acquisition strategy that, instead of         the program under the Nunn-McCurdy provision of
                        having one prime contractor with end-to-end             the FY 1982 National Defense Authorization Act. In
                        responsibility for the entire system, now               addition to the staggering cost increases, the program
                        awards separate contracts for the spacecraft and        was running 17 months behind schedule yet the
                        ground segments and relies on the government            contractor had received $123 million in incentive
                        to furnish the instruments.                             payments. Our audit uncovered two overarching
                                                                                management and contract weaknesses that
              NOAA and NASA have also been negotiating a                        contributed to the unchecked cost and schedule
              memorandum of understanding defining the                          overruns: first, the NPOESS Executive Committee—
              authorities and responsibilities of each organization             top leaders from the three agencies charged with
              for the management, development, acquisition, and                 overseeing the project—never challenged optimistic
              integration of GOES-R, which they had expected to                 assessments of the impact of technological problems.
              complete by the end of last calendar year. A draft                Second, the contractor received excessive award fees
              was provided for departmental review in early                     despite problems.
              January. It offers a high-level outline of
              responsibilities but defers the specifics to the                  In June 2006, the House Science Committee
              GOES-R management control plan, which is to be                    accepted a triagency proposal to continue the
              approved by NESDIS and Goddard within 90 days                     program, but with four satellites instead of six. The
              of the memorandum’s signing.                                      first satellite will launch in 2013 rather than 2010, as
                                                                                proposed in the original program. Total acquisition
              We are concluding our fieldwork and expect to report              costs were revised from the original estimate of
              recommendations for improving the Department’s                    $6.4 billion to $11.5 billion to support NPOESS
              satellite acquisition processes and oversight in the              satellite coverage through 2026.
              next semiannual period.
                                                                                As a result of our audit, NOAA agreed to institute
                                                                                regular internal program reviews as well as annual
              NPOESS Problems Increase Pressure                                 and ad hoc independent program assessments, revise
                                                                                the award fee plan to better link award fees with
              for Strong Agency Oversight
                                                                                desired outcomes, and assign responsibility for
                                                                                determining fee awards to an official who does not
              Our September 2006 Semiannual Report (page 29)
                                                                                directly manage the NPOESS program.
              detailed the findings of our audit of the National
              Polar-orbiting Operational Environmental Satellite
              System (NPOESS). Our findings revealed how far
              afield satellite procurement projects can run when
              management oversight slides. This has put new
              pressure on agency officials and program planners to
              have strong mechanisms in place for tracking every


                                                                           12
OIG SAR 5-22-07   5/23/07   2:55 PM   Page 13




              March 2007—Semiannual Report to Congress                                           Major Challenges for the Department




              Challenge 7                                                   promotion in many instances, but we also identified
                                                                            areas where Commerce and members of the
              Promote Fair Competition in                                   interagency Trade Promotion Coordinating
                                                                            Committee could enhance their cooperation on
              International Trade                                           specific trade promotion activities, such as trade
                                                                            finance assistance. In addition, our review of the
              The Department of Commerce accomplishes its                   Department’s Internet resources for exporters found
              goals of promoting trade, opening overseas markets            that Commerce could better organize its online
              to American firms, and protecting U.S. industry               content and consolidate information from other
              from unfair trade practices primarily through the             agencies to provide a one-stop source of U.S.
              work of the International Trade Administration. ITA           government trade leads and other export assistance.
              also works with USPTO and NIST to assist U.S.                 (See page 37.)
              companies with intellectual property rights and
              standards. Over the past several years, OIG has
              focused a number of reviews on the Department’s
                                                                            U.S. Trade Promotion in Latin America
              efforts to increase U.S. market opportunities, provide
              assistance to U.S. exporters, and overcome trade
                                                                            During this semiannual period, we issued our report
              barriers in difficult foreign markets.
                                                                            on CS’ posts in Brazil and received an action plan on
                                                                            our report about its posts in Argentina and Uruguay.
                                         In September 2006, ITA’s
                                                                            (About half of the recommendations we made have
                                         Commercial Service (CS)
                                                                            been satisfied. Only seven remain open, and we have
                                         responded     to    OIG
                                                                            asked for a follow-up status report by June 30.)
                                         recommendations
                                                                            Significant export opportunities are opening in these
                                         regarding U.S. trade
                                                                            countries as Brazil’s large economy continues its
              promotion efforts in China and India by announcing
                                                                            steady growth, Argentina recovers from its 2001­
              extensive changes in its procedures for verifying
                                                                            2002 economic crisis, and Uruguay pursues closer
              export success claims, its primary performance
                                                                            trade relations with the United States. Our
              measure. CS stated that the new procedures were
                                                                            inspections focused on the management, program
              necessary because, in a significant number of cases,
                                                                            operations, and financial and administrative practices
              OIG had found discrepancies in the reported export
                                                                            of these three South American posts.
              successes. These discrepancies raised doubts about
              the integrity of the data CS reports to Congress and
                                                                            Our review of CS operations in Brazil found that the
              the administration on its accomplishments. The new
                                                                            post provides valuable assistance to U.S. companies
              CS procedures require improved documentation,
                                                                            in the complex Brazilian business environment and
              supervisory confirmation of a sample of export
                                                                            collaborates well with other trade promotion
              success reports, and verification that CS provided
                                                                            agencies, including key U.S. government offices and
              value-added assistance.
                                                                            nongovernmental organizations. The report discusses
                                                                            challenges posed by the post’s management structure
                                                                            and allocation of office resources, and the need to
              Interagency Trade Coordination                                develop measurable long-term goals for the standards
                                                                            and intellectual property attachés recently posted to
              In response to a request from members of the U.S.             Brazil. We found that the post responded to budget
              House of Representatives, including the then-                 cuts by adjusting its programmatic priorities, and we
              chairman of the Small Business Committee, we                  are concerned that this may impact its overall
              reviewed various aspects of Commerce’s trade                  performance and delivery of products and services.
              promotion efforts and the coordination of those
              efforts among various offices within Commerce and             In general, we found the post’s financial and
              with other federal and state agencies and other trade         administrative operations are sound. However, our
              partners. We found effective collaboration on trade           report identifies some discrepancies in ITA and CS


                                                                       13
OIG SAR 5-22-07   5/23/07   2:55 PM    Page 14




              Major Challenges for the Department                                                           March 2007—Semiannual Report to Congress



              accounting reports for the post and some                                    Challenge 8
              administrative policies that were not being followed.
              We also continued to see some questionable export                           Effectively Manage NOAA’s
              success claims that do not appear to contribute to CS’
              mission to promote U.S. exports. (See page 33.)
                                                                                          Stewardship of Ocean and Living
                                                                                          Marine Resources
                                                                                          The National Oceanic and Atmospheric
                                                                                          Administration is charged with monitoring the
                                                                                          health of our nation’s ocean, coastal, and Great Lakes
                                                                                          resources; administering civilian ocean programs; and
                                                                                          protecting and preserving the nation’s living marine
                                                                                          resources through scientific research, fisheries
                                                                                          management, enforcement, and habitat conservation.
                                                                                          NOAA spends billions of dollars each year
                                                                                          supporting a vast array of programs designed to
                                                                                          protect and enhance these resources that “are critical
                                                                                          to the very existence and well-being of the nation and
                                                                                          its people.”4 These are programs that require long-
                                                                                          term commitments and years of funding to show
                                                                                          their full effect. During this semiannual period we
                                                                                          continued our look at one such program, salmon
                                                                                          recovery, wrapping up a series of audits of NOAA-
                                                                                          funded projects operating in the Pacific Northwest.

                                                                                          We reviewed the administration of a 5-year,
                                                                                          $27.4 million grant to fund salmon recovery projects
                                                                                          in Washington state to assess whether the grantee was
                                              www.geology.com/world/brazil-map.gif        properly managing a number of project subgrants.
                                                                                          Our initial fieldwork disclosed inadequate policies
              During the upcoming semiannual period, OIG plans                            and procedures for awarding subgrants and
              to continue its review of Commerce’s trade                                  monitoring funded projects, which prompted us to
              promotion efforts, including the Department’s                               conduct audits of nine project subgrants. Our
              preparation of the National Export Strategy and the                         recently concluded audit of the grantee revealed that
              involvement of other federal agencies in that effort.                       some processes had improved, but serious deficiencies
              We will also continue our review of Commerce’s                              remain, particularly in the area of fund
              actions taken in response to the recommendations of                         administration. (See page 45.)
              our recent reports on CS operations at Asian and
              South American posts. We may also look at the                               Along the same lines, during the next semiannual
              Department’s efforts to increase exports to countries                       period, we plan to initiate additional audits of NOAA
              that have recently signed trade promotion agreements                        financial assistance programs and award recipients.
              with the United States.                                                     For example, we will look at the Fisheries Finance
                                                                                          Loan Program, operated by NOAA’s National Marine
                                                                                          Fisheries Service. This program provides financing
                                                                                          for the purchase or reconstruction of used fishing
                                                                                          vessels that will not add capacity to regulated
                                                                                          fisheries. Our audit will evaluate NMFS’

                                                                                          4
                                                                                              U.S. Commission on Ocean Policy



                                                                                     14
OIG SAR 5-22-07   5/23/07       2:55 PM       Page 15




              March 2007—Semiannual Report to Congress                                                                Major Challenges for the Department



              management of the loan program and assess whether                                 The Consultation Process
              the program advances the complementary goals of
              ending overfishing and rebuilding fisheries.                                      Section 7 of the Endangered Species Act requires
                                                                                                federal agencies to consult with NOAA about any
                                                                                                activity they plan to undertake that may affect listed
                                                                                                species. In July 2005, we issued a report on NOAA’s
                                                                                                consultation process for a biological opinion, in
                                                                                                which we found that NOAA deviated from its
                                                                                                normal quality control practices, and was criticized as
                                                                                                having acted arbitrarily or inappropriately (see
                                                                                                September 2005 Semiannual Report, page 21). We
                                                                                                plan to follow up on actions NOAA has taken to
                                                                                                improve its review process.




                                                                                                Challenge 9
                                                                                                Aggressively Monitor Emergency
                                                                                                Preparedness, Safety, and Security
                                                                                                Responsibilities
                                                                                                The Department of Commerce has more than
                                                                                                35,000 employees and hundreds of facilities it must
                                                                                                keep safe. As a cabinet-level Department, it also has a
              www.nwr.noaa.gov/Salmon-Recovery-Planning/PCSRF/upload/ PCSRF-Rpt-2006.pdf        number of programs critical to national preparedness
                                                                                                and recovery efforts, and it must support U.S. efforts
              We are also preparing to initiate reviews of programs                             to prepare for, respond to, and promote recovery
              in other stewardship areas, as follows:                                           from major disasters.

              National Marine Sanctuary Program                                                 We continue to monitor Commerce’s progress in
                                                                                                resolving departmental emergency preparedness and
              This program is charged with managing areas of the                                security weaknesses. As of February 2007, the
              marine environment that have special national                                     Department had addressed virtually all of the
              significance because of their conservation, historical,                           outstanding recommendations from our 2002 and
              or scientific qualities. It encompasses one coral reef                            2005 reviews of its emergency preparedness efforts.
              ecosystem reserve and 13 marine sanctuaries,                                      Despite this progress, a dynamic security environment
              including the Northwestern Hawaiian Islands                                       will continue to challenge the Department as it seeks
              Marine National Monument, which is the world’s                                    to maintain effective oversight of emergency programs
              largest marine conservation area. Managing the                                    and plans, identify and mitigate security
              sanctuaries presents significant challenges to NOAA,                              vulnerabilities, and protect critical assets.
              as it must balance commercial interests with
              conservation and research activities, and coordinate                              During this semiannual period, we worked closely
              its efforts with the Coast Guard, the Department of                               with the Defense Intelligence Agency to develop a
              Interior, and others.          We are initiating a                                guide for evaluating emergency preparedness
              comprehensive review of the program during the next                               programs for the Inspection and Evaluation
              semiannual period.                                                                Committee of the President’s Council on Integrity



                                                                                           15
OIG SAR 5-22-07   5/23/07   2:55 PM    Page 16




              Major Challenges for the Department                                             March 2007—Semiannual Report to Congress



              and Efficiency (PCIE). The guide was designed to be
              a tool for reviewing agency emergency preparedness
              at the local, state, and federal levels.




                                                                                                                                            NWS
                                                                            September is traditionally a month of little tornadic activity in
                                                                            Minnesota. But the unannounced F-2 tornado that hit Rogers
                                                                            severely damaged scores of homes, such as the one above, and left
                                                                            one child dead.



                                                                            During the next 6 months, we plan to review
                                                                            NOAA’s National Data Buoy Center and the
                                                                            National Weather Service’s other buoy and coastal
                                                                            monitoring station operations that are part of the
                                                                            nation’s weather monitoring and forecasting system.
                                                                            Such operations play a critical role in the
                                                                            Department’s efforts to enhance the United States’
                                                                            emergency preparedness by supporting NWS’ ability
                                                                            to provide advance notification of severe weather
                                                                            events to state and local officials and the public.

              Also during this period, we responded to a request
              from then-Senator Mark Dayton (D-Minnesota) to
              examine NWS’ actions in connection with a                     Challenge 10
              powerful tornado in Rogers, Minnesota, that killed a
              child and injured six other people in September. We           Enhance Export Controls for
              were also asked to evaluate the agency’s policies and         Dual-Use Commodities
              technological capabilities for forewarning the public.
              In our response to the Senator’s inquiry, we reported         Protecting U.S. national and economic security
              that the Chanhassen Weather Forecasting Office, the           through export controls is a challenge that grows
              NWS Central Region Office, and the Storm                      constantly more complex for federal agencies such as
              Prediction Center generally followed agency policies          Commerce’s Bureau of Industry and Security. BIS is
              for handling severe weather events and have what is           responsible for the federal government’s export
              considered to be the best available technology for            licensing and enforcement system for goods and
              reading weather conditions. But at the same time, we          technologies with both civilian and military uses.
              noted several factors that may have adversely
              impacted Chanhassen’s handling of the situation               During this semiannual period, we completed our
              and that warrant close management attention.                  final National Defense Authorization Act review, this
              (See page 41.)                                                time looking at the effectiveness of U.S. controls on
                                                                            dual-use exports to India—a country that presents
                                                                            unique challenges for U.S. commercial interests and
                                                                            export control policy. Although India is recognized as


                                                                       16
OIG SAR 5-22-07   5/23/07      2:55 PM      Page 17




              March 2007—Semiannual Report to Congress                                                               Major Challenges for the Department



              a democratic partner in the fight against terrorism                               Our 2007 review assessed (1) whether BIS’ export
              and as a counterbalance to China, U.S.                                            control policies, practices, and procedures for India
              nonproliferation specialists are concerned about its                              are clear, documented, and designed to achieve the
              nuclear capabilities and intentions. As current U.S.                              desired goals; (2) whether BIS personnel were
              policy moves toward full civil nuclear cooperation                                following the prescribed policies, practices, and
              with India, it is essential that the U.S. government                              procedures relating to India; and (3) how effective
              have effective export controls.                                                   BIS was in detecting and preventing the diversion of
                                                                                                sensitive commodities to weapons of mass
                                                                                                destruction-related programs within or outside India.
                                                                                                While the license application review process was
                                                                                                working adequately, we identified a number of
                                                                                                weaknesses in BIS’ administration of export controls
                                                                                                for India and recommended a series of actions to
                                                                                                resolve them. (See page 19.)

                                                                                                Although this review concludes our statutory
                                                                                                reporting requirements under NDAA, we will
                                                                                                continue to monitor BIS’ efforts to implement and
                                                                                                enforce dual-use export controls, follow up on our
                                                                                                previous NDAA recommendations, and report on
                                                                                                BIS’ progress in implementing them.
                                          Edgewood Chemical Biological Center, U.S. Army
              This nuclear magnetic resonance imager is among a host of
              advances made possible by nuclear technologies that have
              revolutionized medical diagnostics and treatment. With greater
              access to such technologies from the U.S., India plans to expand its
              nuclear medicine capacity and a variety of other civilian programs.




                                                                                           17
